           Office of Inspector General




June 30, 2004

GLORIA E. TYSON
MANAGER, ALABAMA DISTRICT

SUBJECT: 	Audit Report – Self-Service Vending Program – Alabama District
         (Report Number DR-AR-04-004)

This is one of a series of audit reports on the Self-Service Vending Program in the
Southeast Area. The report presents the results of our self-initiated audit on the
Self Service Vending Program in the Alabama District (Project Number
04WG003DR003). The information in this district report will be included in a report to
the Southeast Area Vice President.

                                         Background
The Self-Service Vending Program, implemented in October 1964, is one of the Postal
Service’s major programs. It provides Postal Service customers with a convenient
alternative for purchasing stamps and other basic Postal Service products after
business hours and without the need to stand in line during business hours.
Nationwide, the Postal Service maintains approximately 30,000 vending
machines (27,000 self-service postal centers and 3,000 other types of
vending equipment) that generated over $1.9 billion in revenue during fiscal years
(FYs) 2001 through 2003. The Southeast Area had 4,298 pieces of vending equipment
that generated over $109 million in revenue during FY 2003, of which the Alabama
District maintained 518 (12 percent of the total area) machines that generated over
$8.2 million (8 percent of the total area) in revenue in the same year.

                              Objective, Scope, and Methodology
The objective of our audit was to determine whether the Self-Service Vending Program
is effectively and efficiently meeting program goals of increasing revenue and reducing
operating costs. Specifically, in this review, we determined whether Self-Service
Vending Program managers have effectively redeployed vending equipment that does
not meet minimum revenue requirements in order to maximize revenue, and




   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Self-Service Vending Program –                                                                         DR-AR-04-004
 Alabama District


discontinued the use of obsolete vending equipment. Of the 518 vending machines
operating in the Alabama District, 1081 were classified as obsolete based on Postal
Service guidance, while the remaining 410 were classified as current equipment.
During our audit work, we visited Postal Service facilities, interviewed managers and
employees, reviewed documentation and applicable policies and procedures, and
analyzed data in the Postal Service’s Vending Equipment Sales and Service System
(VESS) for FYs 2002 through 2003 to identify obsolete equipment and equipment that
did not meet the minimum revenue requirements.2 Although we relied on data obtained
from VESS, we did not test the validity of the data and controls over the system. Audit
work associated with the Alabama District was conducted from December 2003 through
June 2004, in accordance with generally accepted government auditing standards and
included such tests of internal controls as were considered necessary under the
circumstances. We discussed our observations and conclusions with appropriate
management officials and included their comments, where appropriate.

                                         Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this review.

                                               Audit Results
Opportunities exist for Alabama District officials to improve the effectiveness and
efficiency of the Self-Service Vending Program and to meet or exceed program goals of
increasing revenue and reducing operating costs. Specifically, officials could increase
revenue opportunities by redeploying equipment that does not meet minimum revenue
requirements. Further, Alabama District officials could reduce maintenance and repair
costs by discontinuing the use of obsolete equipment.

Redeployment of Vending Equipment

Alabama District officials could improve their process for redeploying vending
equipment that does not meet Postal Service minimum revenue requirements.
Specifically, in FY 2003, the Alabama District may have missed revenue opportunities
totaling approximately $0.5 to $1.6 million by not redeploying vending equipment that
did not meet the Postal Service’s minimum revenue requirements.3 District officials
reviewed vending equipment revenue reports and determined that 212 (52 percent) of

1
  This number includes 18 Rowe 420 SCC-3 Small Currency Changers. These machines do not generate revenue.
2
  Obsolete equipment was not included in the minimum revenue analysis.
3
  For each vending machine, we calculated the shortfall in revenue compared to the established minimum for a
particular machine type and referred to this shortfall as “missed revenue opportunities.” The $0.5 million represents
the minimum total possible missed revenue opportunities after giving consideration to Postal Service guidance, which
requires district officials to review revenue reports and take appropriate actions if a vending machine’s revenue does
not reach plan in three to six accounting periods. The $1.6 million represents the maximum total possible missed
revenue opportunities for the FY 2003 and is calculated by subtracting actual revenues generated from the total of all
machine minimum revenue requirements.




                                                          2
Self-Service Vending Program –                                                   DR-AR-04-004
 Alabama District


the 410 vending machines did not meet the minimum revenue requirements during
FY 2003. Average vending equipment sales totaled approximately $1.9 million, which
was significantly less than the average minimum revenue requirement of $3.5 million.

One of the Self-Service Vending Program’s goals is to increase revenue through the
redeployment of equipment. The Postal Service should redeploy equipment that does
not meet minimum revenue requirements to other locations. Postal Service policy,
Handbook PO-102, Self Service Vending Operational and Marketing Program,
May 1999 (updated with Postal Bulletin revisions through December 25, 2003),
establishes the minimum revenue requirements for vending machines. The District
Retail Office is responsible for evaluating equipment revenue to find the right location
for the right machine. If self-service vending equipment is located in an area where it is
unable to generate revenue to meet the minimum requirement, the equipment must be
considered for redeployment. If revenue does not meet the minimum requirement in
three to six accounting periods, the District Retail Office should place the equipment on
a list for redeployment; notify any office where changes will be made; prepare a
typewritten or computer-generated notice, approved through the District Retail Office, to
be posted in the lobby informing customers 30 days before removing the equipment;
and complete Postal Service Form 4805, Maintenance Work Order, and move the
equipment to a better location.

During our review, district officials took action to redeploy two machines. For the
remaining 210 machines, district officials did not initiate any redeployment action
because of concern for the potential adverse impact on customer service due to the
nonavailability of machines in rural locations. However, during our audit, district officials
initiated action to issue low-revenue letters to the postmasters for redeployment of
underperforming machines. Although officials initiated action to issue low-revenue
letters, the district could miss revenue opportunities during FY 2004 if management
does not take action to redeploy the under performing equipment. District officials also
expressed concern regarding the Postal Service’s methodology to establish minimum
revenue requirements, and that the current requirements are too high in relation to the
machines geographic locations. We plan to forward the district’s concern to Postal
Service Headquarters regarding the policy on minimum revenue requirements.

We discussed the results with Alabama District officials and they agreed that they could
improve their redeployment process for equipment that does not meet the Postal
Service’s minimum revenue requirements.

Recommendation

We recommend the Manager, Alabama District, direct the Retail Manager to:

1. Review revenue reports to identify under performing equipment; notify postmasters
   of vending equipment that generates low revenue; and giving consideration to all




                                              3
Self-Service Vending Program –                                                                     DR-AR-04-004
 Alabama District


    feasible alternatives, complete all necessary actions to redeploy under performing
    equipment as often as possible.

Management’s Comments

Management agreed, in part, with the recommendation because of concern for the
potential adverse impact on customer service. Revenue reports are reviewed monthly
via the VESS report. In February 2004, the district office initiated 165 low revenue
letters to postmasters where vending equipment fell short of the revenue goals. In the
letter, a plan of action to improve low revenue deficiencies was requested. The office
received various responses to this request. The district office will place the equipment
on a redeployment list where feasible, and follow the proper procedures for removal.
District officials realized this is an ongoing effort, and will remain diligent in their efforts
to get the best return on their investment with available vending equipment.
Management’s comments, in their entirety, are included in the appendix of this report.

Evaluation of Management’s Comments

Management comments are responsive to our recommendation. Management’s actions
taken or planned should correct the issues identified in the finding.

Use of Obsolete Equipment

In FY 2003, Alabama District officials continued to use 108 obsolete machines and
incurred maintenance and repair expenses, although Postal Service policy discontinued
the maintenance and repair support for the machines in June 2000.4 Our review of
vending equipment revenue reports showed that 85 (94 percent) of the 90 machines did
not meet minimum revenue requirements during FY 2003. District officials stated that
they continued to use and maintain the obsolete equipment because of the potential
adverse impact on customer service since replacement equipment was not available.
As a result, the district incurred maintenance and repair expenses in FY 2003 by
continuing to operate and maintain the 108 obsolete machines. We were unable to
determine the amount of repair and maintenance expenses associated with the
108 machines because the Postal Service does not capture the data for each machine.5

Periodically, the Postal Service lists vending equipment as obsolete, meaning that the
equipment has exceeded its expected life cycle and will no longer receive support from
maintenance organizations. All inactive retail vending equipment items must be
reported to the District Material Management Specialist. When retail vending equipment
items are obsolete or listed as excess, the Postal Service may consider them for

4
  This Maintenance Management Order (MMO) supplements MMO-018-96, dated June 21, 1996, titled -
Discontinuance of Support for Obsolete Vending Machines. This MMO includes discontinuance of support for
recently obsolete models of vending machines announced in the Material Logistics Bulletin (MLB-PP-00-004), issued
on May 18, 2000.
5
  We plan to conduct a future audit on vending equipment maintenance and repair costs.



                                                        4
Self-Service Vending Program –                                               DR-AR-04-004
 Alabama District


disposal action. Parts from obsolete machines may be salvaged and stored for
maintenance or repair of other compatible equipment. In June 2000, Postal Service
policy listed the obsolete vending equipment that should no longer receive support from
maintenance organizations.

By continuing to use and maintain obsolete machines, the district will incur repair and
maintenance costs that may exceed the revenue generated. We recognize
management’s desire to provide customer service; however, because the Postal
Service does not capture repair and maintenance, management has no means of
assessing whether the benefits of operating the obsolete equipment outweigh the cost
to operate it. We are making no recommendations to the district regarding this finding.
However, we plan to make a recommendation to Postal Service Headquarters to
address the policy of discontinuing maintenance and repair support for obsolete
equipment.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Debra D. Pettitt, Director,
Delivery and Retail, at (404) 507-8329 or me at (703) 248-2300.


/s/ Mary Demory

Mary Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: William J. Brown
    Roger Wilson
    Cynthia Sims
    Ricardo Archbold
    Joseph K. Moore




                                           5
Self-Service Vending Program –                            DR-AR-04-004
 Alabama District


                      APPENDIX. MANAGEMENT’S COMMENTS 





                                    6
Self-Service Vending Program –        DR-AR-04-004
 Alabama District




                                 7

